No. 19-465
IN THE SUPREME COURT OF THE UNITED STATES
PETER BRET CHIAFALO, ET AL.,
v.

Petitioners,

STATE OF WASHINGTON,
Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Brief of Amicus Curiae Public Citizen in Support of Respondent contains 4,219 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
Executed on April 7, 2020.

SCOTT L. NELSON
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

